     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103




June 25, 2010


Report Number: A-09-09-00055

David Maxwell-Jolly, Ph.D.
Director
Department of Health Care Services
1501 Capitol Avenue, MS 0000
Sacramento, CA 95899-7413

Dear Dr. Maxwell-Jolly:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of California’s Invoicing of Rebates for Medicaid
Compound Drug Expenditures – Manual Claims. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jerry McGee, Audit Manager, at (323) 261-7218, extension 603, or through email at
Jerry.McGee@oig.hhs.gov. Please refer to report number A-09-09-00055 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – David Maxwell-Jolly, Ph.D.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF CALIFORNIA’S INVOICING
    OF REBATES FOR MEDICAID
COMPOUND DRUG EXPENDITURES –
        MANUAL CLAIMS




                       Daniel R. Levinson
                        Inspector General

                           June 2010
                         A-09-09-00055
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
California, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs.

Section 1927(b)(2)(A) of the Act requires States to (1) maintain drug utilization data that
identifies, by drug code, the number of units of each covered outpatient drug for which the State
reimbursed providers and (2) provide the drug utilization data to manufacturers and CMS. The
number of units is applied to the unit rebate amount to determine the total rebate amount due
from each manufacturer. States report drug utilization data to manufacturers on a quarterly
invoice.

Pharmacists create compound drugs by combining two or more prescription or nonprescription
drug products and then repackaging them into a new form. For each compound drug claim,
CMS guidance states that the drug code and corresponding quantity for each ingredient must be
included on the claim for Medicaid reimbursement.

In March 2010, we issued a report on California’s claims for Medicaid compound drug
expenditures for fiscal years (FY) 2004 and 2005 (A-09-08-00034). We excluded from that
review approximately $15.5 million of hardcopy claims processed manually (manual claims).
For those claims, the State agency did not provide ingredient detail because the information was
not recorded in electronic format in the State’s Rebate Accounting Information System (RAIS).

OBJECTIVE

Our objective was to determine whether the State agency’s manual claims for Medicaid
compound drug expenditures complied with Federal requirements related to invoicing
manufacturers for rebates.




                                                i
SUMMARY OF FINDINGS

The State agency’s $15.5 million of manual claims for Medicaid compound drug expenditures
for FYs 2004 and 2005 did not comply with Federal requirements related to invoicing
manufacturers for rebates. Specifically, the State agency did not invoice drug manufacturers for
or report to CMS the total number of units for compound drug ingredients. Of a random sample
of 100 manual claims, 98 claims included ingredients that were eligible for rebates, totaling
$4,205 ($2,227 Federal share). Based on our sample results, we estimated that the State agency
failed to invoice manufacturers for and collect $2,069,777 ($1,095,964 Federal share) in rebates
for eligible compound drug ingredients.

The State agency had inadequate internal controls to ensure that all compound drug expenditures
billed on manual claims complied with Federal requirements related to invoicing manufacturers
for rebates. The State agency informed us that the RAIS is not currently designed to invoice
rebates for compound drug ingredients. In addition, according to State agency guidance, the
State agency had not invoiced manufacturers for any compound drug ingredients since the
second quarter of 1998.

RECOMMENDATIONS

We recommend that the State agency:

   •   invoice manufacturers for rebates for the $15.5 million of manual claims for compound
       drug expenditures and refund the Federal share of the rebates collected by reporting it on
       Form CMS-64 as a reduction to the Federal reimbursement for Medicaid expenditures;

   •   invoice manufacturers for rebates for eligible compound drug ingredients billed on
       manual claims for expenditures for the third quarter of 1998 through FY 2003 and refund
       the Federal share of the rebates collected by reporting it on Form CMS-64 as a reduction
       to the Federal reimbursement for Medicaid expenditures; and

   •   strengthen internal controls, including modifying the RAIS, to (1) invoice manufacturers
       for eligible compound drug ingredients and (2) report drug utilization data to CMS.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the first and third recommendations of our draft report, the State agency commented
that the rebates will be captured through a system change currently under development, which
will allow for invoicing of eligible compound drug ingredients. Regarding the second
recommendation, the State agency commented that it would need to assess the feasibility of
invoicing rebates for the third quarter of 1998 through FY 2003 because of the large number of
resources required to manually review the claims. The State agency’s comments are included in
their entirety as Appendix C.




                                                ii
We continue to recommend that the State agency invoice manufacturers for eligible compound
drug ingredients for the third quarter of 1998 through FY 2003.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicaid Program ..............................................................................................1
              Medicaid Outpatient Prescription Drug Program ..............................................1
              Compound Drugs ...............................................................................................2
              Prior Office of Inspector General Report...........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

          FEDERAL REQUIREMENTS ......................................................................................4

          REBATES NOT INVOICED FOR COMPOUND DRUG INGREDIENTS ................5

          EFFECT OF REBATES NOT INVOICED...................................................................5

          INADEQUATE INTERNAL CONTROLS ..................................................................5

          RECOMMENDATIONS ...............................................................................................5

          STATE AGENCY COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE .................................................6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including California, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements and related regulations (42 CFR § 447.510) require manufacturers to provide a
list of all covered outpatient drugs to CMS quarterly. CMS includes these drugs on a quarterly
Medicaid drug tape, makes adjustments for any errors, and sends the tape to the States. The tape
includes information that the States use to claim rebates from drug manufacturers, including a
drug’s unit rebate amount. Drugs are identified on the tape by a unique 11-digit numerical code
(drug code) that indicates the manufacturer, product, and package size. CMS guidance instructs
the States to use the tape to verify coverage of the drugs for which they claim reimbursement and
to calculate the rebates that the manufacturers owe.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by drug code, the number of units of each covered outpatient drug for which the State
reimbursed providers. Section 1927(b)(2)(A) of the Act also requires States to provide the
manufacturers and CMS with the drug utilization data, not later than 60 days after the end of
each rebate quarter. The number of units is applied to the unit rebate amount to determine the
total rebate amount due from each manufacturer. States report drug utilization data to
manufacturers on a quarterly invoice.


1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective
January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not
participate in the program.

                                                          1
States report drug rebate accounts receivable data on Form CMS-64.9R, Drug Rebate Schedule.
This form is part of Form CMS-64, Quarterly Medicaid Statement of Expenditures for the
Medical Assistance Program, which summarizes actual Medicaid expenditures for each quarter
and is used by CMS to reimburse States for the Federal share of Medicaid expenditures. The
Federal share of drug rebates paid by manufacturers is reported on Form CMS-64 as a reduction
to the Federal reimbursement to States for Medicaid expenditures.

Compound Drugs

Pharmacists create compound drugs by combining two or more prescription or nonprescription
drug products and then repackaging them into a new form. 2 For each compound drug claim,
CMS guidance states that the drug code and corresponding quantity for each ingredient must be
included on the claim for Medicaid reimbursement. 3

Prior Office of Inspector General Report

In March 2010, we issued a report on California’s claims for Medicaid compound drug
expenditures for fiscal years (FY) 2004 and 2005. 4 We excluded from that review
approximately $15.5 million of hardcopy claims processed manually (manual claims). For those
claims, the State agency did not provide ingredient detail because the information was not
recorded in electronic format in the State’s Rebate Accounting Information System (RAIS).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s manual claims for Medicaid
compound drug expenditures complied with Federal requirements related to invoicing
manufacturers for rebates.

Scope

The audit scope included 49,219 manual claims for compound drug expenditures totaling
$15,498,340 ($8,184,656 Federal share) that the State agency claimed for Federal reimbursement
for FYs 2004 and 2005 (October 1, 2003, through September 30, 2005). We reviewed a random
sample of 100 manual claims totaling $33,272 ($17,617 Federal share).



2
 The U.S. Pharmacopeia provides that “compounding involves the preparation and mixing of one or more
components according to a written prescription specifically for individual patients.” U.S. Pharmacopeia,
Compounding Backgrounder (September 2008).
3
 The CMS guidance was published in 72 Fed. Reg. 39217, 39220 (July 17, 2007) in response to a commenter’s
question about billing of compound drugs.
4
 Review of Medicaid Compound Drug Expenditures in California for Fiscal Years 2004 and 2005
(A-09-08-00034), issued March 31, 2010.

                                                        2
We limited our internal control review to the State agency’s procedures for determining whether
compound drugs were eligible for Medicaid coverage and were accurately claimed for Federal
reimbursement. We did not review the accuracy or completeness of the quarterly Medicaid drug
tapes.

We performed our audit from February to December 2009 and conducted fieldwork at the State
agency’s offices in Sacramento, California.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and program guidance and the State plan;

   •   interviewed State agency personnel responsible for identifying, monitoring, and reporting
       drug expenditures and for reporting rebates;

   •   confirmed that manufacturers had not been invoiced for compound drug ingredients;

   •   identified a sampling frame of 49,219 manual claims for compound drug expenditures
       totaling $15.5 million ($8.2 million Federal share) that the State agency claimed for
       Federal reimbursement for FYs 2004 and 2005;

   •   randomly selected 100 compound drug claims totaling $33,272 ($17,617 Federal share)
       from the sampling frame;

   •   obtained supporting documentation for each sampled compound drug claim and, for each
       claim:

           o identified the ingredients (drugs) dispensed and the quantity dispensed;

           o compared the ingredients with drug codes included on the CMS quarterly drug
             tapes for the period October 1, 1999, through June 30, 2006;

           o calculated rebate amounts that the State agency had not invoiced to manufacturers
             by multiplying the quantities identified on the claim by the unit rebate amounts
             contained on the quarterly drug tapes; and

           o calculated the Federal share for rebates that had not been invoiced using the
             lowest reimbursement rate applicable for each quarter; and

   •   used the sample results to estimate the total amount and Federal share of the rebates that
       had not been invoiced for manual claims for compound drug expenditures for FYs 2004
       and 2005.



                                                3
See Appendix A for the sample design and methodology and Appendix B for the sample results
and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s $15.5 million of manual claims for Medicaid compound drug expenditures
for FYs 2004 and 2005 did not comply with Federal requirements related to invoicing
manufacturers for rebates. Specifically, the State agency did not invoice drug manufacturers for
or report to CMS the total number of units for compound drug ingredients. Of a random sample
of 100 manual claims, 98 claims included ingredients that were eligible for rebates, totaling
$4,205 ($2,227 Federal share). Based on our sample results, we estimated that the State agency
failed to invoice manufacturers for and collect $2,069,777 ($1,095,964 Federal share) in rebates
for eligible compound drug ingredients.

The State agency had inadequate internal controls to ensure that all compound drug expenditures
billed on manual claims complied with Federal requirements related to invoicing manufacturers
for rebates. The State agency informed us that the RAIS is not currently designed to invoice
rebates for compound drug ingredients. In addition, according to State agency guidance, the
State agency had not invoiced manufacturers for any compound drug ingredients since the
second quarter of 1998.

FEDERAL REQUIREMENTS

Section 1927(b)(1)(A) of the Act states: “A rebate agreement … shall require the manufacturer
to provide … a rebate for … covered outpatient drugs of the manufacturer … for which payment
was made under the State plan … .”

Section 1927(b)(2)(A) of the Act states that it is the responsibility of the State to “… report to
each manufacturer not later than 60 days after the end of each rebate period … information on
the total number of units of each [drug code] of each covered outpatient drug dispensed … for
which payment was made under the [State] plan during the period, and shall promptly transmit a
copy of such report to [CMS].”

Section 1927(b)(1)(B) of the Act states: “Amounts received by a State under [a rebate
agreement] … in any quarter shall be considered to be a reduction in the amount expended under
the State plan in the quarter for medical assistance … .”

The CMS Medicaid Drug Rebate Operational Training Guide, page E3, states: “Within 15 days
after receiving the [unit rebate amount] data tape from CMS, states must submit invoices to each
[manufacturer] for any [drug codes] the state reimbursed a pharmacy for during the past quarter.”

                                                4
Furthermore, “… each state must generate a separate record for each [drug code] billed to the
[manufacturers] and submit a tape to CMS containing all utilization for the quarter.”

REBATES NOT INVOICED FOR COMPOUND DRUG INGREDIENTS

The State agency did not invoice drug manufacturers for or report to CMS the total number of
units for compound drug ingredients. Of a random sample of 100 manual claims, 98 claims
included ingredients that were eligible for rebates. For the 98 claims, rebates for eligible drugs
totaled $4,205 ($2,227 Federal share). The State agency did not collect rebates for or credit the
Medicaid program for these eligible drugs.

EFFECT OF REBATES NOT INVOICED

Based on our sample results, we estimated that the State agency failed to invoice for and collect
rebates totaling $2,069,777 ($1,095,964 Federal share) for FYs 2004 and 2005. If the State
agency had invoiced for and collected the rebates associated with the eligible compound drug
ingredients, Federal reimbursement to the State agency would have been reduced by
approximately $1.1 million.

INADEQUATE INTERNAL CONTROLS

The State agency had inadequate internal controls to ensure that all compound drug expenditures
billed on manual claims complied with Federal Medicaid requirements related to invoicing
manufacturers for rebates.

The State agency informed us that the RAIS is not currently designed to invoice rebates for
compound drug ingredients. The State agency also informed us that other system projects had
taken priority and the resources to implement the system change necessary to invoice rebates for
compound drug ingredients were not available.

According to the State agency’s Drug Rebate Section Training Manual, Medicaid compounds
are involved in the drug rebate program; however, “[c]hallenges to the invoicing process resulted
in no invoiced compounds after second quarter 1998.”

RECOMMENDATIONS

We recommend that the State agency:

   •   invoice manufacturers for rebates for the $15.5 million of manual claims for compound
       drug expenditures and refund the Federal share of the rebates collected by reporting it on
       Form CMS-64 as a reduction to the Federal reimbursement for Medicaid expenditures;

   •   invoice manufacturers for rebates for eligible compound drug ingredients billed on
       manual claims for expenditures for the third quarter of 1998 through FY 2003 and refund
       the Federal share of the rebates collected by reporting it on Form CMS-64 as a reduction
       to the Federal reimbursement for Medicaid expenditures; and

                                                 5
   •   strengthen internal controls, including modifying the RAIS, to (1) invoice manufacturers
       for eligible compound drug ingredients and (2) report drug utilization data to CMS.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding the first and third recommendations of our draft report, the State agency commented
that the rebates will be captured through a system change currently under development, which
will allow for invoicing of eligible compound drug ingredients. Regarding the second
recommendation, the State agency commented that it would need to assess the feasibility of
invoicing rebates for the third quarter of 1998 through FY 2003 because of the large number of
resources required to manually review the claims. The State agency’s comments are included in
their entirety as Appendix C.

We continue to recommend that the State agency invoice manufacturers for eligible compound
drug ingredients for the third quarter of 1998 through FY 2003.




                                               6
APPENDIXES 

                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY 


POPULATION 


The population consisted of hardcopy claims processed manually (manual claims) for compound
drug expenditures that the California Department of Health Care Services (the State agency)
claimed for Federal reimbursement under the Medicaid outpatient prescription drug program for
fiscal years (FY) 2004 and 2005. The State agency claimed a total of $15,498,340 on Form
CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program,
and received $8,184,656 in Federal reimbursement.

SAMPLING FRAME

The sampling frame included 49,219 manual claims for compound drug expenditures for which
the State agency claimed a total of$15,498,340 and received $8,184,656 in Federal
reimbursement under the Medicaid outpatient prescription drug program for FYs 2004 and 2005.

SAMPLE UNIT

The sample unit was an individual manual claim for a compound drug expenditure.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 manual claims for compound drug expenditures.

SOURCE OF THE RANDOM NUMBERS

The source of the random numbers was the Office ofInspector General, Office of Audit
Services, statistical software. We used the Random Number Generator for our simple random
sample.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the frame from 1 to 49,219. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total amount and Federal share of rebates
that were not invoiced to manufacturers.
                  APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                                        Sample Results

                  Value of                                    No. of        Value of
   Total                                      Value of
                 Sampling                                    Claims       R ebates Not
 Claims in                                     Sample
                   Frame      Sample Size                   W ithout        Invoiced
 Sampling                                     (Federal
                  (Federal                                  R ebates        (Federal
  Frame                                        Share)
                   Share)                                   I nvoiced        Share)
   49,219        $8,184,656       100         $17,617           98           $2,227


                             Estimates of Rebates Not Invoiced
                   (Limits Calculatedfor a 90-Percent Confidence Interval)

                         Total Rebate Amount
                             Not Invoiced                 Federal Share
Point estimate                 $2,069,777                  $1,095,964
Lower limit                     1,257,320                     665,763
Upper limit                     2,882,234                   1,526,165
                                                                                                                   Page 10f3


                      APPENDIX C: STATE AGENCY COMMENTS 





                              State of California-Health and Human Services Agency
 ~HCS
                              Department of Health Care Services

DAVID MAXWELL·JOLLY                                                                                     ARNOLD SCHWARZENEGGER
       Director                                                                                                 Governor



      .MAYa 7 2010

        Ms. Lori A. Ahlstrand 

        Regional Inspector General for Audit Services 

        Office of Audit Services 

        Office of Inspector General 

        90 - ih Street, Suite 3-650 

        San Francisco, CA 94103 


        Dear Ms. Ahlstrand:

        The California Department of Health Care Services (DHCS) has prepared its response
        to the U.S. Department of Health and Human Services, Office of Inspector General
        (OIG), draft report entitled "Review of California's Invoicing of Rebates for Medicaid
        Compound Drug Expenditures - Manual Claims" (A-09-09-00055). DHCS appreciates
        the work performed by the OIG and the opportunity to respond to the draft report.

        Please contact Ms. Traci Walter, Audit Coordinator, at (916) 650-0298 if you have any
        questions.

        Sincerely,

        Original Signed By

        Toby Douglas 

        Chief Deputy Director 

        Health Care Programs 


        cc:      See next page




                      1501 Capitol Avenue, Suite 71.6001, MS 0002 • P.O. 997413 • Sacramento, CA 95899-7413 

                                                (916) 440-7400· (916) 440-7404 FAX 

                                                  Internet address: www.dhcs.ca.gov 

                                                                 Page 2 of3




Ms. Lori A. Ahlstrand 

Page 2 





cc: 	   Ms. Vanessa Baird 

        Deputy Director 

        Health Care Policy 

        1501 Capitol Avenue, MS 4000 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Ms. Pilar Williams, Chief 

        Pharmacy Benefits Division 

        1501 Capitol Avenue, MS 4604 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 


        Ms. Maria Enriquez, Chief 

        Fiscal Intermediary and Contracts Oversight Division 

        1501 Capitol Avenue, MS 4700 

        P.O. Box 997413 

        Sacramento, CA 95899-7413 

                                                                                           Page 3 of3




                          Department of Health Care Services 

            Response to the Office of Inspector General's Draft Report Entitled 


                    Review of California's Invoicing of Rebates for 

                Medicaid Compound Drug Expenditures - Manual Claims 

                                    A-09-09-00055 



Recommendation:      Invoice manufacturers for rebates for the $15.5 million of manual claims
                     for compound drug expenditures and refund the Federal share of the
                     rebates collected by reporting it on Form CMS-54 as a reduction to the
                     Federal reimbursement for Medicaid expenditures.

Response:            The estimated $2.1 million ($1 million Federal funds) in rebates from the
                     $15.5 million in claims for 2004 and 2005 will be captured under the
                     system change currently under development. See response to the third
                     recommendation.

Recommendation:      Invoice manufacturers for rebates for eligible compound drug ingredients
                     billed on manual claims for expenditures for the third quarter of 1998
                     through FY 2003 and refund the Federal share of the rebates collected
                     by reporting it on Form CMS-54 as a reduction to the Federal
                     reimbursement for Medicaid expenditures.

Response:            Prior to the end of 2003, Health Care Services' claims system did not
                     capture ingredient information for compound drugs. Rebate invoicing for
                     the third quarter of 1998 through 2003 will require a large number of
                     resources to manually review thousands of claims (as not all necessary
                     data is available on the paper claims) and to input data into the system
                     to determine the rebatable amounts. Changes to the Rebate Accounting
                     and Information System (RAIS) will also be necessary in order to capture
                     the data from the paper claims for rebating purposes. Health Care
                     Services needs to assess the feasibility of this project at this time,
                     particularly in the midst of a transition to a new Medi-Cal Management
                     Information System.

Recommendation:       Strengthen internal controls, including modifying the RAIS, to (1) invoice
                      manufacturers for eligible compound drug ingredients and (2) report drug
                      utilization data to CMS.

Response:             Health Care Services is in the beginning stages of implementing a
                      system change that will allow for the invoicing of eligible compound drug
                      ingredients. Once implemented, Health Care Services will be able to
                      retroactively invoice manufacturers for claims back to the last quarter of
                      2003 (September-December). The RAIS system modifications will take
                      an estimated 12 to 15 months.
